              GENERAL CONTROLS OVER THE
          ELECTRONIC DOCUMENT ACCESS SYSTEM


Report No. D-2001-029               December 27, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)             Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
DEBX                 Defense Electronic Business Exchange
DECC                 Defense Enterprise Computer Center
DFAS                 Defense Finance and Accounting Service
DISA                 Defense Information Systems Agency
DITSCAP              DoD Information Technology Security Certification and
                        Accreditation Process
EDA                  Electronic Document Access
JECPO                Joint Electronic Commerce Program Office
MOCAS                Mechanization of Contract Administrative Services
MOU                  Memorandum of Understanding
NIPRNET              Non-secure Internet Protocol Routing Network
                       Office of the Inspector General, DoD
Report No. D-2001-029                                           December 27, 2000
 (Project No. D2000FG-0057)

                          General Controls Over the
                      Electronic Document Access System

                                Executive Summary

Introduction. The Joint Electronic Commerce Program Office (JECPO) initiated the
Electronic Document Access (EDA) system as part of the DoD Paper-Free Contracting
Initiative. EDA contributes to the initiative by digitizing paper documents and offering
web-based read-only access to official contracting, finance and accounting documents.
Personnel at the Defense Finance and Accounting Service (DFAS) Columbus rely on
the EDA system to make more than 82,000 contract payments each month. The
Director, DFAS Columbus, requested that we review the EDA system to determine
whether sufficient safeguards are in place to ensure the security of electronically
transmitted contractual data.

Objectives. The audit objective was to determine whether the security of the EDA
system was adequate. The audit included reviews of selected general controls,
compliance with the Chief Financial Officers Act requirements, and the management
control program as it related to the overall objective. The report discusses DFAS
implementation of the EDA system as it applies to DFAS Columbus.

Results. The EDA system security controls were not sufficient and could not provide
reasonable assurance that EDA data transmitted electronically and used by DFAS
Columbus were secure. JECPO implementation of EDA and DFAS security for EDA
needed improvement. Unless corrective actions are taken, EDA data could be altered
or misused. See Appendix A for details on the management control program as it
relates to controls over the EDA system.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) (ASD(C3I)) revise the
Electronic Business/Electronic Commerce Strategic Plan to address security
responsibilities and requirements. We recommend that the Director, JECPO, in
coordination with DFAS and the Defense Information Systems Agency, develop the
System Security Authorization Agreement to provide end-to-end security for EDA;
incorporate all relevant elements as outlined in the DoD Information Technology
Security Certification and Accreditation Process manual; develop and execute the EDA
system test and evaluation to include all EDA users; and, incorporate security
requirements and review guides within the Memorandums of Understanding with EDA
document providers and users. We recommend that the DFAS Chief Information
Officer complete the security training curriculum for information security managers.
We recommend the Director, DFAS Columbus, require the information security
manager to document and execute a plan to implement and enforce all applicable
security policies and safeguards over the Columbus systems; to develop access profiles
for all personnel having access to EDA and DFAS Columbus systems; and, assess and
provide the resources and training the information security manager needs to perform
information security functions.

Management Comments. ASD(C3I) concurred with revising the Electronic
Business/Electronic Commerce Strategic Plan to address specific security
responsibilities and requirements. JECPO concurred with developing the System
Security Authorization Agreement for EDA in coordination with DFAS and DISA;
developing and executing the EDA security test and evaluation; and, incorporating
security requirements within Memorandums of Understanding and review guidelines
with EDA document providers. DFAS concurred with the need for security training
for information security managers; that the information security manager document and
execute a plan for implementing security policies and safeguards; that the information
security manager attend training on information security topics; and, that the Director,
DFAS Columbus redirect or request additional resources for the information security
manager. DFAS nonconcurred with developing EDA access profiles for users, stating
that EDA access is read only. DFAS also nonconcurred with the existence of a
management control weakness regarding the alteration and accuracy of EDA documents
and the need for signatures on contracting documents. See the Finding section of the
report for details on the management comments and the management comments section
for the complete text of management comments.

Audit Response. Comments from ASD(C3I) were responsive; however, they did not
specify when a revision to the Electronic Business/Electronic Commerce Strategic Plan
would be accomplished. We request that ASD(C3I) provide the date in comments on
the final report. Comments from JECPO were responsive on incorporating security
requirements and review guidelines within the Memorandums of Understanding.
JECPO comments on the development of the System Security Authorization Agreement
are responsive. However, the comments did not provide a date when the agreement
may be finalized, so we request that JECPO provide a completion date for the finalized
agreement. JECPO comments on the development and execution of the EDA system
test and evaluation are responsive. However, the comments stated that an EDA system
test and evaluation was completed in September 2000 and that final recommendations
would be reviewed and appropriate corrective actions would be implemented. The
comments did not specify when those corrective actions would occur. We request that
JECPO identify when they will be implemented. Comments from DFAS regarding
completion of a security training curriculum in accordance with the Assistant Secretary
of Defense (Command, Control, Communications, and Intelligence) June 29, 1998,
memorandum on Information Assurance training are responsive. Although DFAS
nonconcurred regarding the need for access profiles, the decision to review each
person’s system accesses meets with the intent of the recommendation. DFAS also
nonconcurred that a material management control weakness existed. We believe that
the nature of the issues identified clearly warrants reporting a material weakness.




                                           ii
Table of Contents

Executive Summary                                                            i

Introduction
     Background                                                              1
     Objectives                                                              3

Finding
     Implementation of Security Safeguards Within the Electronic Document
       Access System                                                         4

Appendixes
     A. Audit Process
         Scope                                                              18
         Methodology                                                        19
         Management Control Program Review                                  19
     B. Prior Coverage                                                      21
     C. Report Distribution                                                 22

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and, Intelligence)                                                   24
     Defense Information Systems Agency                                     25
     Defense Finance and Accounting Service                                 30
Background
    During their audit of the FY 1999 Air Force financial statements, the Air Force
    Audit Agency requested more than 11,000 paper documents from DFAS
    Columbus to support sampled electronic transactions. Subsequent to the Air
    Force audit, the Director, DFAS Columbus, requested that we review the
    Electronic Document Access (EDA) system to determine whether sufficient
    safeguards are in place to ensure the security of electronically transmitted
    contractual data and reduce hard copy verification requirements.

    Paper-Free Contracting Initiative. On May 21, 1997, the Under Secretary of
    Defense (Comptroller) directed the implementation of a paper-free contracting
    process and stated the need to simplify and modernize the acquisition process in
    contract writing, administration, finance, and auditing. However, the Under
    Secretary’s direction did not address security.

    Joint Electronic Commerce Program Office. To support the Paper-Free
    Contracting Initiative, the Deputy Secretary of Defense, under Defense Reform
    Initiative Directive 43, “Defense-wide Electronic Commerce,” May 20, 1998,
    directed the establishment of the Joint Electronic Commerce Program Office
    (JECPO) as an entity under the policy direction of the Assistant Secretary of
    Defense for Command, Control, Communications, and Intelligence,
    (ASD(C3I)), to integrate electronic commerce in the full DoD business cycle.
    On November 24, 1998, JECPO was chartered to implement electronic
    commerce within DoD. However, the charter did not address electronic
    commerce security.

    Electronic Document Access. JECPO initiated EDA as part of the DoD Paper-
    Free Contracting Initiative to reduce the amount of paper used and stored by
    DoD contracting personnel, to reduce the contract payment cycle time, and to
    facilitate the sharing of information among DoD personnel. EDA contributes to
    the initiative by digitizing paper documents and offering web-based read-only
    access to official contracts and modifications, vouchers, Government bills of
    lading, and accounting and finance documents.

    EDA System Process. The following figure illustrates the EDA process and
    flow of data within EDA.




                                        1
Documents are entered into the EDA system from DoD contracting
organizations. Currently, there are nine contracting organizations (data
originating sites) that generate information for use in EDA. The contract
documents are generated using the Standard Procurement System or legacy
contract writing systems. For those organizations using the Standard
Procurement System, PostScript printing software is used to send the data
directly through the Defense Electronic Business Exchange (DEBX) for
conversion into portable document format to the Defense Enterprise Computer
Center (the computer center) at Ogden, Utah. For legacy systems, document
files are sent to the Defense Automated Printing Service for conversion into
portable document format. Once converted into portable document format, all
of the file indexes generated by the Defense Automated Printing Service are sent
to the computer center at Ogden for storage and queries from users. The
computer center at Ogden maintains the file indexes for the Standard
Procurement System files and Defense Automated Printing Service converted
files. The computer center at Ogden transmits an updated index listing of the
portable document format files every 2 hours to the computer center at
Columbus, Ohio, for use by DFAS Columbus payment personnel.

EDA users include personnel from the data originating sites, such as
procurement contracting officers, administrative contracting officers, DFAS
payment personnel, and systems administrators. To access EDA, a DoD user
network must have a connection through the Non-secure Internet Protocol
Routing Network (NIPRNET), which is a DoD unclassified data


                                   2
     communications network. Local terminal area security officers are the liaison
     between the users and the computer center at Ogden and are responsible for
     requesting logons for DFAS employees with approval from their supervisor.
     The computer center personnel at Ogden assign and maintain the logons in the
     EDA system. Once a logon is assigned, the user may query either the computer
     center at Ogden or the computer center at Columbus EDA servers for EDA
     documents. The queried EDA server then displays a portable document format
     image of the electronically generated document to the user.

Objectives
     The audit objective was to determine whether the security of the Electronic
     Document Access was adequate. The audit included reviews of selected general
     controls and compliance with the Chief Financial Officers Act requirements and
     the management control program as it related to the overall objective. Refer to
     Appendix A for discussion of the management control program and Appendix B
     for prior coverage.




                                        3
           Implementation of Security Safeguards
           Within the Electronic Document Access
           System
           Security controls over the EDA system were not sufficient to provide
           users with reasonable assurance that data transmitted electronically and
           used by DFAS Columbus were accurate. This lack of sufficient security
           controls for EDA occurred because:

               •   security responsibilities are not defined;

               •   an end-to-end assessment of security has not been completed,

               •   DFAS security and training requirements are not defined, and

               •   DFAS Columbus security staff lacked adequate resources.

            As a result, risk existed that data maintained in EDA could be altered or
            misused. Further, auditors would remain unable to rely on EDA system
            controls, so verification of the transactions would remain labor intensive
            and administratively burdensome.

Guidance and Responsibility for Securing EDA
    DoD System Security Requirement. DoD Directive 5200.28, “Security
    Requirements for Automated Information Systems (AIS),” March 21, 1988,
    provides guidance on mandatory minimum automated information system
    security requirements. Specifically, the Directive requires that heads of DoD
    Components shall ensure that periodic independent reviews of the security and
    protection of their automated information system are accomplished to ensure
    compliance with stated security goals.

    DoD System Certification and Accreditation Manual. DoD Manual 5200.40,
    “DoD Information Technology Security Certification and Accreditation Process
    (DITSCAP) Application Document,” December 1999, (the accreditation
    process), establishes standards for certifying and accrediting the security of DoD
    systems throughout their life cycle. A certification is a comprehensive
    evaluation of the technical and non-technical security features of an information
    technology system and other safeguards. The certification supports the
    accreditation process that determines whether a particular design and
    implementation meet a set of specified security requirements. The accreditation
    is a formal declaration by a designated approving authority that an information
    technology system is approved to operate in a particular security mode using a
    prescribed set of safeguards. Before a system can be certified and accredited,
    the accreditation process requires the completion of a System Security
    Authorization Agreement (security agreement) and the system test and
    evaluation.


                                        4
System Security Authorization Agreement. The security agreement is a
formal binding agreement between the organizations responsible for operating
and securing the system. The agreement is between the designated approving
authority, the certification authority, information technology system
representatives, and the program manager. For EDA, these are the DFAS
Chief Information Officer, the Defense Information Systems Agency (DISA),
and JECPO, respectively. The security agreement specifies the level of security
required when the system development begins or when changes to a system are
made. The security agreement is designed to fulfill the requirements for a
security plan and to meet all the needs for certification and accreditation support
documentation. The security agreement includes such items as the system
mission, threats to the system, target environment, target architecture, security
requirements, and applicable data access policies, and resources. Using the
security agreement, the decision approving authority determines the
accreditation based on the security safeguards, risk, corrective actions, and
compliance with the security agreement.

       System Test and Evaluation. The objective of the system test and
evaluation is to evaluate implementation of system security to ensure that
automated security features affecting confidentiality, integrity, and availability
have been implemented according to the security agreement, are performing
properly, and provide the required security features. The performance of a
system test and evaluation may be a joint effort between the users, systems
administration, and program management. In the case of EDA, the system test
and evaluation may include DFAS, DISA, and JECPO. The results of the
system test and evaluation are included in the security agreement.

DISA Security Readiness Reviews. DISA Field Security Operations personnel
perform security readiness reviews on DISA facilities to identify security and
infrastructure deficiencies and to generate reports on the discrepancies.
According to the “Security Readiness Review Process Guide,” July 30, 1999,
organizations should be made aware of the results of the security readiness
review process and vulnerability assessment scans conducted at their site
because they represent the major part of their certification and accreditation
security posture. Since certification tasks include a review and analysis of all
prior security readiness review results to determine the security posture of the
site and its information systems or technology, it is in the best interest of the site
to correct identified security vulnerabilities as quickly as possible.

DFAS System Security Guidance. DFAS Regulation 8000.1-R, “Information
Management Corporate Policy,” May 21, 1999, describes DFAS information
security requirements and implementing instructions, including the requirement
that all DFAS-owned automated information systems be certified and accredited
in accordance with the “DFAS Certification and Accreditation Handbook,”
March 6, 1998. The DFAS Handbook follows the same process and procedures
as those described in the DITSCAP.

EDA Security Responsibilities. The Under Secretary of Defense (Comptroller)
issued “Business Rules for Electronic Document Access,” as a working draft on
June 24, 1999, and stated that they were effective immediately. According to


                                      5
    the business rules, EDA security is the responsibility of all organizations
    involved in the process including JECPO, DFAS, DISA, the users, and data
    originating sites. Participation by all parties is critical to ensure that security is
    planned and managed as an end-to-end process. We commend the Director,
    DFAS Columbus, for acknowledging a potential security weakness and
    requesting Inspector General, DoD, assistance for an in-depth look at EDA
    security.

Security of EDA
    Reliance on EDA. DFAS Columbus personnel rely on the information
    accessed from EDA to make more than 82,000 contract payments each month,
    and contracting officials throughout DoD rely on EDA data to monitor
    contracts, contract modifications, Government bills of lading, and vouchers. In
    addition, to provide opinions on DoD annual financial statements compiled by
    DFAS, auditors must assess the reliability of information contained in EDA. If
    they are unable to rely on the information contained in EDA, they must
    significantly increase their sample size to test the integrity of the financial
    information at DFAS Columbus. For example, the Air Force Audit Agency
    required DFAS to produce 11,000 documents to verify the reliability of
    electronic data. Therefore, the data maintained within EDA must be accurate
    and secure to preclude unauthorized access and manipulation of data.

    Adequacy of Security Efforts of EDA Data Used by DFAS Columbus. As
    users and participants in the EDA process, DFAS, JECPO, and DISA, as well
    as the originators of EDA data, have a responsibility to ensure the accuracy and
    reliability of the information, and thus the security controls over EDA input,
    access, and use. As such, they need to demonstrate reasonable assurance that
    EDA data are accurate to users, and that security controls are in place and
    periodically tested to provide an acceptable level of assurance.

    Our review of EDA controls at DFAS Columbus, revealed that the controls
    were not sufficient to provide reasonable assurance that data transmitted using
    EDA were accurate. We identified examples of access control weaknesses and
    other security vulnerabilities that reduced system reliability. In addition, the
    Air Force Audit Agency identified weaknesses during the audit of the Air Force
    FY 1999 financial statements that precluded their reliance on the security of
    EDA data.

            Access Control Issues. At DFAS Columbus, the information security
    manager is responsible for implementing all security measures, and each
    division is assigned a terminal area security officer who is responsible for
    requesting access for EDA from the Ogden computer center. The terminal area
    security officer reports to the information security manager at DFAS Columbus.




                                           6
                   The information security manager at DFAS Columbus has not
           implemented the concept of least privilege for access to EDA.1 An access
           control list based on least privilege can limit the damage that may result if the
           concept of least privilege is ignored. An access control list specifies for each
           named system or file, a list of named individuals with their respective level of
           access to that system or file.

                   The terminal area security officer within each division at DFAS
           Columbus maintains a list of personnel who have access to EDA. The list,
           however, is not based upon least privilege, security levels, or type of position
           held at DFAS Columbus. Rather, access to EDA was granted based on a
           supervisor’s determination that an employee needed access regardless of
           whether the individual had access to other systems that could be incompatible.
           The supervisors at DFAS Columbus have not been provided the criteria they
           needed to properly determine the level of access to EDA. Although the
           information security manager is responsible for implementing security controls,
           the Director, DFAS Columbus is responsible for providing the access criteria.

                   We identified one DFAS Columbus employee who had sufficient access
           to manipulate data and erase the audit trail because of access to EDA, the
           Electronic Document Management System, the Electronic Data Interchange
           system,2 and the Mechanization of Contract Administration Services (MOCAS).
           This employee could change the Master Address File within the MOCAS system
           which allows access to change contractor and government entity codes and
           addresses, incorporate invoices, and have payments made by changing
           significant parts of contracts within the MOCAS system. Coupled with access
           to EDA, this person could access contracts, copy them, change relevant data,
           and incorporate that data into the MOCAS system so that payments could be
           made directly to that individual. We discussed this scenario with DFAS
           Columbus management who agreed that access profiles are necessary to
           determine whether other employees could have this capability. The information
           security manager was unaware of the employee’s access levels. DFAS
           Arlington officials maintain that the same risk exists with paper contracts
           received through the mail system; however, safeguards must be in place to
           ensure that EDA does not make it easier to alter or misuse data.

                  Although DFAS Columbus is working on establishing access control lists
           based on least privilege, they could not tell us whether there were other
           personnel who had the same type of access or state whether that type of access
           occurred only once. At present, the information security manager can not
           quantify the potential security risk.




1
    DoD Directive 5200.28 defines the concept of least privilege as that of each user is granted the most
    restrictive set of privileges needed for the performance of their position.
2
    DFAS Columbus Site personnel are investigating the extent of this employee’s access to the Electronic
    Data Interchange system because DFAS personnel should only have view access.



                                                       7
        Security Vulnerabilities. The information security manager at DFAS
Columbus was not aware of any security readiness reviews conducted on the
EDA servers at the Columbus computer center. A security readiness review
assesses the operating system and computer for vulnerabilities that would allow
an intruder to perform malicious acts and destroy the audit trail. As part of its
responsibility to oversee security of DoD systems, DISA periodically conducts
security readiness reviews of systems to determine the reliability of the system
and its data. In June 1999, DISA performed a security readiness review on the
EDA servers at the Columbus computer center and reported 34 findings.
Although the Columbus computer center has resolved the findings, the
information security manager was unaware that the security readiness review
was completed or that findings had existed. The information security manager
should coordinate with DISA personnel to evaluate the security readiness
reviews on the EDA servers and the subsequent results because the findings may
impact the security of the system.

        Air Force Audit Agency Validation of EDA Data. In performing audit
work in support of the Air Force FY 1999 financial statements, the Air Force
Audit Agency had to assess the accuracy of EDA and other data that support the
financial statements. At DFAS Columbus, they were unable to rely on the EDA
data, and therefore had to do more work to validate amounts identified in EDA
documents. The Air Force Audit Agency expended an additional 1.3 man-years
of resources to validate the transactions; however, DFAS estimated that they
used an additional 10 to 12 man-years to satisfy the Air Force Audit Agency
request. According to the Air Force Audit Agency, about 30 percent of the
EDA contracts reviewed did not contain signatures, which also resulted in
additional work for Air Force Audit Agency and DFAS personnel.

        The Director, DFAS Columbus, stated that DFAS does not know why
there were no signatures on some of documents received. Further, the Director
stated that DFAS assumes the documents entered into EDA are valid and
accurate.

         The Air Force Audit Agency contacted contracting officers to
substantiate the documents maintained in EDA. Although all the EDA contracts
proved to be valid, the Air Force Audit Agency stated that since the contracts
are web-accessed, possible fraud could be generated by either a contracting
officer or other personnel with access to the EDA and other DFAS systems.
Currently, procurement and administrative contracting officers are inputting
contracting documents into EDA. The Air Force Audit Agency stated that an
individual with contracting officer access privileges could submit a contract
without signatures and obtain a payment. Also, the Air Force Audit Agency
stated that DFAS Columbus personnel use EDA contracting documents to enter
data into the MOCAS system to make automatic payments without human
intervention. Because of concerns on the validity of the EDA data and its
reliability, the Air Force Audit Agency needed to substantiate the data with the
signed and dated copies maintained at the contracting offices, consequently
using more resources and reducing the benefits of EDA.




                                    8
EDA Security Responsibilities
     EDA security was insufficient because security responsibilities were not well
     defined, an end-to-end assessment of security was not accomplished, security
     training was inadequate, and the DFAS Columbus security staff lacked adequate
     resources.

     Security Definition. JECPO and DFAS did not clearly define EDA security.
     According to JECPO officials, their focus has been on implementing electronic
     commerce initiatives according to the Deputy Secretary of Defense mandate to
     move toward paperless contracting by January 2000. Therefore, security was
     not a priority while EDA was being implemented. JECPO officials stated that
     security over EDA transactions should not be any greater than the same
     transactions using paper documentation; however, no documented assessment of
     the risks of digitizing contractual documents was available. JECPO and DFAS
     officials also concluded that DISA was responsible for implementing security for
     EDA because EDA ran on DISA computers. However, DISA officials stated
     that they had no authority to mandate security controls for organizations outside
     direct DISA control and that they would only implement security that is
     specifically requested by the user site. Therefore, JECPO and DFAS did not
     adequately assume responsibility for EDA security requirements and a
     comprehensive security plan was not developed and finalized. For example, the
     DoD Electronic Document Access Security Plan, working draft, dated July 15,
     1996, does not address how security would be implemented for each of the
     principals: JECPO, DFAS, DISA, and the document authors. The plan was not
     finalized although JECPO estimates there are 15,000 EDA users. The lack of
     EDA security can be partially attributed to the lack of security in the ASD(C3I)
     Electronic Business/Electronic Commerce Strategic Plan. Although the strategic
     plan provides a blueprint for DoD electronic business, the ASD(C3I) needs to
     revise the plan to include security requirements to provide guidance for JECPO,
     which reports to the ASD(C3I).

     End-to-End Assessment of EDA Security. DFAS Arlington had taken steps to
     partially address EDA end-to-end security by initiating Memorandums of
     Understanding in October 1997 with EDA data originating sites. The
     agreements with DFAS and the data originating sites describe the terms in which
     the document provider would no longer supply paper copies of contracting
     documents to DFAS Columbus. However, DFAS does not review the
     Memorandums of Understanding once they are established because DFAS does
     not have the authority to mandate end-to-end security requirements for
     electronic business.

     The Memorandum of Understanding states that it is the responsibility of the data
     originating sites to ensure the validity of the documents entered into EDA.
     Further, the Memorandum of Understanding indicates that in order to
     implement EDA and turn off the use of paper between the requesting
     organization and DFAS, documents released to EDA must be approved,




                                         9
          authentic and legal, readable, and identical to the signed paper copy. The
          Memorandum of Understanding is silent on signature requirements, and DFAS
          assumes that the data originating sites would not enter invalid contracts into
          EDA.

          JECPO, through the ASD(C3I), has the authority to implement end-to-end
          security requirements for EDA. Therefore, JECPO, rather than DFAS, 3 should
          incorporate security requirements in the Memorandum of Understanding, and
          also establish the review requirements for the EDA data originating sites and
          users. In addition, to ensure the security of the system from the data originating
          sites through the Defense Electronic Business Exchange or the Defense
          Automated Printing Service to the users of EDA data, an assessment of EDA
          security should be made to address the end-to-end process. Such an end-to-end
          assessment would be consistent with the accreditation process and should
          include the System Security Authorization Agreement and the System Test and
          Evaluation.

                  System Security Authorization Agreement. The accreditation process
          establishes a standard, integrated approach to protecting and securing a system.
          The DITSCAP describes the security agreement as the vehicle that defines the
          implementation of information technology security requirements. A security
          agreement describes the system from definition through system test and
          evaluation, risk assessments, system rules of behavior, contingency planning,
          accreditation documentation and accreditation statements, and security
          responsibilities. Thus, a security agreement should provide a comprehensive
          end-to-end assessment of EDA.

                   Because the system is implemented by JECPO, used by DFAS and
          contracting offices, and operated by DISA, it is essential that a security
          agreement be developed to coordinate EDA security requirements among these
          organizations. Although the designation of responsibilities for security over
          EDA is undefined, JECPO, as the DoD-wide integrator of electronic commerce
          initiatives, should initiate the development of the security agreement for the
          EDA system. The development of the security agreement should include
          coordination with the DFAS and DISA to incorporate all relevant elements as
          outlined in the DITSCAP accreditation process manual. The security agreement
          should be developed which specifies security responsibilities for JECPO, DFAS,
          DISA, and the data originating sites.

                 EDA system certification and accreditation can not be achieved without
          the development of the security agreement. However, the DFAS Chief
          Information Officer issued an Interim Approval to Operate on October 22,
          1999, through October 23, 2000, based on a verbal presentation. The DFAS
          Chief Information Officer extended the Interim Approval to Operate on

3
    As part of the System Security Authorization Agreement with DFAS and other EDA users, JECPO may
    delegate authority to DFAS or other activities to oversee enforcement of the Memorandum of
    Understanding depending upon resource constraints. However, JECPO must determine that the
    Memorandum addresses EDA data security.



                                                 10
October 24, 2000, for 180 days so that JECPO could have time to finalize
Memorandums of Understanding with interfacing systems and finalize the draft
System Security Authorization Agreement.

        According to the DITSCAP, an interim approval to operate is a
temporary approval that may be issued for no more than a one-year period after
the security agreement and system test and evaluation are developed and tested.
The DFAS Chief Information Officer granted the approval of the EDA interim
approval to operate acknowledging that EDA security needs improvement, but
the benefits of operating the system outweigh the risks. Although the DFAS
Chief Information Officer provided the approval to operate, JECPO has the
responsibility for integrating electronic commerce in DoD. As such, JECPO
should develop the security agreement for EDA in coordination with DFAS and
DISA to incorporate all relevant elements as described in the DITSCAP, prior
to expiration of the 180 days extension, when the extended interim authority to
operate expires. The development of the security agreement is essential for
ensuring that security requirements are addressed and that joint responsibility
for security is delegated as appropriate.

        System Test and Evaluation. According to the DITSCAP, once a
security agreement has been established, a system test and evaluation should be
performed prior to certification to assess the security infrastructure and to
determine whether security features have been implemented according to the
security agreement. Specifically, the system test and evaluation validates
identification and authentication, audit trail capabilities within the system, and
the rules that define how the network connection is implemented. According to
the DITSCAP, the system test and evaluation should include test procedures on
technical hardware and software security requirements to test the correct
implementation of the security policy. Also, security functional testing must
evaluate the system to determine whether installation procedures were correctly
implemented.

        The lack of an evaluation may result in the improper integration and
operation of all security features affecting confidentiality, integrity, and
availability of the system. Although the responsibility for EDA security is not
clear, JECPO as the DoD organization responsible for electronic commerce
implementation should initiate planning for testing and evaluating the EDA
system.

        The system test and evaluation process should document the procedures
necessary to measure security at DISA, DFAS, and data origination sites
because neither DFAS nor DISA has the authority to enforce security outside
their own agencies. The system test and evaluation should determine whether
security controls are working as intended and that all parties are following the
controls described in the security agreement.

DFAS Training and Security Requirements. DFAS Columbus is a user of
EDA and must ensure the adequacy of EDA security. Information security




                                    11
training is essential to meeting the security requirements within any organization
because of the rapid movement into the electronic commerce arena. Information
system security managers and security staff are the focal point in any
organization for information system security.

        Security Training. The Director, DFAS Columbus, had not ensured
that the information security manager received the necessary security training.
According to DFAS Regulation 8000.1-R, the DFAS Directors supervise
security personnel and manage DFAS security policy for systems under their
control and within the sites. The information security manager is an essential
element to the overall security at DFAS Columbus. However, the information
security manager stated that training on information management, security
controls, physical and access controls had not been received. The only training
for the information security manager included attendance at security conferences
with no in-depth detailed training on information management and security
controls. The Director, DFAS Columbus, should require the information
security manager to attend training on information management and information
security controls, planning and administration of the security program, access
control, network security measures, electronic commerce security issues, and
physical protection of the computing facilities.

        DFAS Chief Information Officer Information Assurance Training.
On June 29, 1998, the ASD(C3I) requested that the Under Secretary of Defense
for Personnel and Readiness identify a common set of information assurance
training and certification requirements for military and civilian occupation
specialties. The memorandum directs that DoD Components shall demonstrate
full compliance through the development and implementation of certification
plans and procedures for all DoD employees who use DoD computer systems or
perform the duties of system administrators and maintainers. In Inspector
General, DoD, Report No. 99-107, “Computer Security for the Defense
Civilian Pay System,” March 16, 1999, we recommended that DFAS revise
DFAS Regulation 8000.1-R to outline specific training requirements for each
security position commensurate with assigned functional responsibilities. DFAS
concurred with the recommendation.

        The DFAS Chief Information Officer had not developed the training
curriculum for security officers (information security manager, information
system security officers, and terminal area security officers) as required by the
ASD(C3I). The DFAS Chief Information Officer acknowledged that they are
revising the training requirements that were due out in August 2000, including
requirements for each type of security officer. Because of increased reliance on
automation and the need for proper controls and access, it is critical for those
responsible for security to be knowledgeable of the systems security
requirements and potential vulnerabilities. Once trained, these personnel should
be better able to identify and oversee security requirements for DFAS Columbus
systems and processes. The DFAS Chief Information Officer needs to complete
the development of a training curriculum to qualify information security
managers for their positions.




                                    12
   DFAS Columbus Security Efforts for EDA. In addition to not having
   available a training curriculum, DFAS Columbus also lacked sufficient staff to
   adequately perform the security functions described in DFAS
   Regulation 8000.1-R or to review the DFAS Columbus information systems,
   including EDA.

           Security Resources. The Director, DFAS Columbus, did not ensure
   that the information security manager had the personnel resources to enforce
   applicable security policies. The information security manager was formally
   assigned in February 2000 after serving as an alternate since 1998. The
   information security manager and an alternate are responsible for all information
   security at DFAS Columbus. However, the alternate does not actively
   participate in specific system security because of responsibilities with the DFAS
   Columbus network. Each system at DFAS Columbus was to have an
   information system security officer to help address security concerns for
   particular systems. According to the DFAS Columbus information security
   manager, the information system security officers have not been appointed. The
   information security manager must have the resources to protect DFAS
   Columbus information systems. The Director, DFAS Columbus, should also
   assess and provide the resources the information security manager needs to
   perform the functions outlined in DFAS Regulation 8000.1-R.

           Security Reviews. According to DFAS, because of limited staff, the
   information security manager had not developed an overall plan to review
   systems, to review security readiness review results, or coordinate remedies
   with DISA. For the same reason, the information security manager had been
   unable to conduct periodic independent reviews of system adequacy. For EDA
   and other systems, the information security manager had not developed access
   control lists (profiles) to preclude employees from having access greater than
   needed. As a result, employees that changed jobs may have retained access
   privileges to systems they no longer needed access to. This could result in an
   employee gaining sufficient access to potentially commit fraud or to perform
   malicious acts without detection.

          To improve security at DFAS, the Director, DFAS Columbus, needs to
   require the information security manager to document and execute a plan to
   implement and enforce all applicable security policies and safeguards. The
   information security manager should also develop access profiles for all
   personnel having access to the EDA and other DFAS Columbus systems.


Summary
   The general controls for the EDA system at DFAS Columbus did not provide
   reasonable assurance that the system was adequately protected. As such, the
   EDA security weaknesses allowed the risk of undetected fraud or misuse. The
   lack of a security agreement or a system test and evaluation increases the risk of
   data inaccuracy and that implemented security may not be operating as intended.
   JECPO oversight needs to be expanded to include the development of the


                                       13
security agreement for the EDA system and the conduct of a system test and
evaluation to reduce risk. An EDA system test and evaluation should be
developed and testing accomplished to provide assurance that the EDA system is
protected and operating as intended.

There was not a reasonable basis to rely upon DFAS Columbus controls to
prevent fraud or misuse because the lack of resources and training for the
information security manager position. Also, the lack of knowledge by the
information security manager of system vulnerabilities increases the risk of
intrusion.

Additionally, DFAS estimated that 10 to 12 man-years were necessary to gather
the documentation needed by the Air Force Audit Agency for reviewing
electronic transactions to support their FY 1999 financial statement audits.
Because of the limited reliability of DFAS Columbus security for their
electronic transactions, the Air Force Audit Agency required DFAS Columbus
to provide more than 11,000 paper documents to support the sampled electronic
transactions, which eliminated the EDA benefits of reducing the reliance on
paper. Until controls are improved, auditors may need to continue to request
paper copies for electronic transactions being audited.

Efforts Taken by JECPO, DFAS and DISA. JECPO, DFAS, and DISA have
initiated some security measures for EDA use at DFAS Columbus.

        JECPO Efforts. As of October 2000, JECPO acknowledged
responsibility for end-to-end security of EDA and has initiated actions to address
such. Specifically, JECPO with the support of DFAS, is developing the
security agreement and the system test and evaluation and is updating EDA
documentation as necessary. Based on comments from a draft of this report,
JECPO stated that a system test and evaluation was conducted the week of
September 11, 2000, at the Defense Enterprise Computing Center at Ogden,
Utah, and Columbus, Ohio. Final report recommendations from the system test
and evaluation will be reviewed and appropriate corrective actions will be
implemented. In addition, JECPO is in the process of developing and
coordinating Memorandums of Agreement with each of the EDA user
organizations.

        DFAS Efforts. DFAS acknowledged the need to work with JECPO and
DISA to improve EDA security. DFAS also acknowledged the need to improve
security at DFAS Columbus to provide training to its security personnel. In
addition, DFAS has initiated Memorandums of Understanding to establish a
working agreement between DFAS and the data originating sites to authorize
their use of EDA and to permit their discontinuing submission of paper
documents to DFAS Columbus. In the Memorandums of Understanding, DFAS
states that the users must comply with DFAS EDA business rules. The business
rules require that internal controls at the contract writing organization are
sufficient to ensure that only valid, awarded contracts are placed on EDA, no
pen and ink changes are made to the contracts once they are converted to EDA,
and the procurement office retains the official signed contract. Further, the



                                    14
     Memorandums of Understanding place responsibility for ensuring the accuracy
     and validity of documents in EDA on the providers of the contract information.

            DISA Efforts. In addition, as a good first step, DISA computer centers
     in Columbus and Ogden have implemented secure locations by installing
     Enforcer software for the EDA document servers for intrusion detection, and all
     EDA connections to the computer centers are through a firewall. DISA Field
     Security Operations personnel recommended the intrusion detection software.


Recommendations, Management Comments, and Audit
  Response
        1. We recommend that the Assistant Secretary of Defense for
  Command, Control, Communications, and Intelligence revise the Electronic
  Business/Electronic Commerce Strategic Plan to address specific security
  responsibilities and requirements.

         ASD(C3I) Comments. The ASD(C3I) concurred.

          Audit Response. Comments from the ASD(C3I) are responsive. We
  request that the ASD(C3I) specify when the revision to the Electronic Business/
  Electronic Commerce Strategic Plan will be accomplished in comments on the final
  report.

        2. We recommend that the Director, Joint Electronic Commerce
  Program Office:

      a. Develop the System Security Authorization Agreement to provide end-to-
  end security for the Electronic Document Access system in coordination with
  the Defense Finance and Accounting Service and the Defense Information
  Systems Agency to incorporate all relevant elements as outlined in the DoD
  Information Technology Security Certification and Accreditation Process
  manual before October 22, 2000.

  JECPO Comments. Comments from JECPO were included in comments from
  DISA. JECPO concurred and has prepared a draft System Security Authorization
  Agreement that was completed and delivered to DFAS and DISA on September 7,
  2000, for coordination. JECPO is in the process of finalizing the agreement.

  Audit Response. JECPO comments are responsive. We request that JECPO
  provide a completion date for the finalized agreement in comments to the final
  report.

     b. Develop and execute the Electronic Document Access system test and
  evaluation to include all Electronic Document Access system users, the Defense
  Finance and Accounting Service, and the Defense Information Systems Agency.




                                         15
JECPO Comments. JECPO concurred and stated that an EDA security test and
evaluation was completed in September 2000 at DECC Ogden and DECC
Columbus using the draft System Security Authorization Agreement,
September 7, 2000, and DITSCAP guidance. JECPO comments also stated that
final recommendations would be reviewed and appropriate corrective actions would
be implemented.

Audit Response. The JECPO comments are responsive. We request that JECPO
provide a completion date for when the review would be performed and corrective
actions would be implemented in comments to the final report.

   c. Incorporate security requirements and review guidelines within the
Memorandums of Understanding with Electronic Document Access document
providers and users.

JECPO Comments. JECPO concurred and is in the process of drafting and
coordinating the memorandums with each of the feeder and interfacing systems with
EDA. JECPO anticipates the revised Memorandums of Understanding to be signed
during first quarter FY 2001. Also, the signed Memorandums of Understanding
will be made a part of the System Security Authorization Agreement, system test
and evaluation, and EDA security documentation package.

      3. We recommend that the Chief Information Officer, Defense Finance
and Accounting Service, complete a security training curriculum for the
information security manager, the information system security officer, and the
terminal area security officer in accordance with the Assistant Secretary of
Defense for Command, Control, Communications, and Intelligence, June 29,
1998, memorandum on Information Assurance training.

       DFAS Comments. DFAS concurred and stated that training is being
provided agency-wide including security personnel at DFAS Columbus and will be
completed by March 2001.

       4. We recommend that the Director, Defense Finance and Accounting
Service, Columbus:

   a. Require the information security manager to document and execute a
plan to implement and enforce all applicable security policies and safeguards
over the systems located at the Defense Finance and Accounting Service
Columbus.

DFAS Comments. DFAS concurred and stated that the Information Security
Manager has prepared a draft of the Information Security Plan that outlines goals,
objectives, specific actions, roles, and responsibilities of DFAS information security
managers. The final version of the Information Security Plan is expected to be
completed by December 31, 2000, with implementation in January 2001.

   b. Develop access profiles for all personnel having access to the Electronic
Document Access.



                                       16
DFAS Comments. DFAS nonconcurred and stated that Contract Pay Services
personnel do not have the capability to alter or change EDA documents, but can
only browse and print documents. DFAS maintains that the contract writing
organizations control the content of converted EDA documents. In addition, DFAS
stated that the Terminal Area Security Officers maintain access to systems on a
spreadsheet for each person and are reviewed to ensure that there are no internal
control violations. Further, DFAS Columbus stated that they will request a listing
of all contract pay services personnel that have access to EDA for comparison with
existing MOCAS access tables and profiles. The comparison will ascertain whether
there are inconsistencies between the functional requirements of the personnel and
their granted access. The DFAS comments indicate that if inconsistencies are
found, corrective action will be taken to restrict the query access to only the EDA
documents needed to accomplish assigned duties.

Audit Response. DFAS comments are responsive. Although DFAS nonconcurred
with the recommendation, the development of a listing to compare existing MOCAS
tables and profiles with access to EDA meets the intent of the recommendation.

    c. Require the information security manager to attend training on
information management and information security controls, planning and
administration of the security program, access control, network security
measures, electronic commerce security issues, and physical protection of the
computing facilities.

DFAS Comments. DFAS concurred and stated that the Information Security
Manager has attended over 450 hours in formal training. DFAS agreed that a
course curriculum specifically geared to information security management is desired
and the expected completion date for the information security training is
March 2001.

   d. Assess the resource needs of the information security manager and
redirect or request additional resources, as necessary, to perform the functions
described in the Defense Finance and Accounting Service Regulation 8000.1-R,
“Information Management Corporate Policy,” May 21, 1999.

DFAS Comments. DFAS concurred and stated that the Information Security
Manager is part of the establishment of the Technical Services Organization that
will be completed in June 2001.




                                       17
Appendix A. Audit Process

Scope
    Work Performed. Personnel at DFAS Columbus rely on the information
    accessed from EDA to make more than 82,000 contract payments each month.
    We performed the audit at DFAS Arlington, DFAS Columbus, and the Joint
    Electronic Commerce Program Office from December 1999 through July 2000.
    We reviewed how DFAS implemented controls for an entity-wide security
    program and access controls for the EDA system. We interviewed the DFAS
    Columbus information security manager, the DFAS Columbus terminal area
    security officers, and the DISA security representatives at the Columbus and
    Ogden Defense Enterprise Computer Centers to determine how they
    implemented security over EDA. We also performed a walkthrough of the
    EDA process as it relates to the Mechanization of Contract Administration
    Services and the Standard Automated Materiel Management System. We
    reviewed the security readiness reviews performed by DISA Field Security
    Operations on the Columbus computer center EDA operating software. The
    reviews identified weaknesses and planned corrective actions for operating
    software that supports EDA.

    Limitations to Audit Scope. The audit was limited to the review of the general
    controls for the EDA system at DFAS Columbus. Based on our assessment of
    the general controls, we determined that a review of the application controls
    should not be conducted at this time. Subsequent reports on the Electronic
    Document Interchange and Electronic Document Management systems will be
    issued.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. Currently, DoD
    has not established a corporate-level goal for information assurance, although
    the General Accounting Office lists it as a high-risk area. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
              future by pursuing a focused modernization effort that maintains U.S.
              qualitative superiority in key warfighting capabilities. Transform the
              force by exploiting the Revolution in Military Affairs, and reengineer
              the Department to achieve a 21st century infrastructure.

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-Dod-2.5)




                                        18
           • FY 2001 Performance Measure 2.5.1: Reduce the number of
              noncompliant accounting and finance systems. (01-DoD-2.5.1)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           • Financial Management Area. Objective: Strengthen internal
              controls. Goal: Improve compliance with Federal Managers
              Financial Integrity Act. (FM-5.3)

           • Information Technology Management Area. Objective: Ensure
               that DoD vital information resources are secure and protected. Goal:
               Assess information assurance posture of DoD operational systems.
               (ITM-4.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Information Management and Technology and the
    Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform
    this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from December 1999 through July 2000 according to auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We used the General Accounting Office Federal
    Information Systems Control Manual and the DoD Information Technology
    Security Certification and Accreditation Process as guides for conducting this
    general control review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a




                                       19
comprehensive system of management controls that provides reasonable
assurance that programs are operating as intended and to evaluate the adequacy
of the controls.

Scope of the Review of the Management Control Program. We reviewed the
adequacy of management controls in place for EDA. Specifically, we reviewed
the implementation of DoD policies and procedures governing EDA. We
reviewed management’s self-evaluation applicable to those management
controls.

Adequacy of Management Controls. We identified material management
control weaknesses as defined by DoD Instruction 5010.40. Management
controls were not adequate to ensure the accuracy of electronic transactions
using EDA. All recommendations in this report, if implemented, will provide
the necessary controls for ensuring the accuracy of the electronic transactions.
A copy of this report will be provided to the senior official responsible for
management controls in the ASD(C3I); DFAS Arlington; and DFAS Columbus.

Adequacy of Management’s Self-Evaluation. DFAS Columbus officials did
not identify EDA as an assessable unit and, therefore, did not identify or report
the material management control weaknesses identified by the audit.




                                    20
Appendix B. Prior Coverage

General Accounting Office
  GAO Report No. GAO/AIMD 99-107 (OSD Case No. 1835), “Information
  Security: Serious Weaknesses Continue to Place Defense Operations at Risk,”
  August 26, 1999

  GAO Report No. GAO/AIMD 98-92 (no OSD case number was issued),
  “Information Security – Serious Weaknesses Place Critical Federal Operations and
  Assets at Risk,” September 23, 1998

Inspector General
  Inspector General, DoD, Report No. 99-107, “Computer Security for the Defense
  Civilian Pay System,” March 16, 1999

  Inspector General, DoD, Report No. 99-103, “DoD Efforts to Implement Year
  2000 Compliance for Electronic Data Interchange,” March 5, 1999
  Inspector General, DoD, Report No. 96-214, “Computer Security for the Federal
  Acquisition Computer Network,” August 22, 1996

Air Force
  Air Force Audit Agency, Project No. DW000005, “Accounting for Selected Assets
  and Liabilities (Fund Balance with Treasury), Fiscal Year 1998 Air Force
  Consolidated Financial Statements, Defense Finance and Accounting Service –
  Columbus Center, Columbus OH,” December 8, 1999

  Air Force Audit Agency, Project No. DW000003, “Accounting for Revenues and
  Other Financing Sources (Disbursements), Fiscal Year 1998 Air Force Consolidated
  Financial Statements, Defense Finance and Accounting Service - Columbus Center,
  Columbus OH,” November 22, 1999

  Air Force Audit Agency, Project No. 97064011, “Electronic Data Interchange
  Procurement Transactions,” December 24, 1998




                                       21
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Joint Electronic Commerce Program Office

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       23
Assistant Secretary of Defense for Command,
Control, Communications, and Intelligence
Comments




                       24
Defense Information Systems Agency Comments




                     25
26
27
28
29
Defense Finance and Accounting Service
Comments




                      30
31
32
33
34
35
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report.

F. Jay Lane
Salvatore D. Guli
Kimberley A. Caprio
Eric L. Lewis
Jacqueline J. Vos
Yolanda C. Watts
Troy R. Zigler
Stephen G. Wynne
